                             Limited Official Use




             Mainframe Computer Disaster Recovery Risks
              Are Increased Due to Insufficient Computer
                         Capacity and Testing

                                August 2004

                    Reference Number: 2004-20-142




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.” Because this
document has been designated LOU, it may only be made available to
those officials that have a need to know the information contained within
this report in the performance of their official duties. This report must be
safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure
Section within the TIGTA’s Office of Chief Counsel.




                             Limited Official Use
                                  Limited Official Use
              Mainframe Computer Disaster Recovery Risks Are Increased
                  Due to Insufficient Computer Capacity and Testing

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Frank Greene, Lead Auditor
Mark Carder, Senior Auditor
Steven Gibson, Auditor
Perrin Gleaton, Auditor
Kim McManis, Auditor




                                Limited Official Use
